No.

IN THE SUPREME COURT OF THE UNITED STATES

RACHEL J. EVENS - Petitioner
Vs.
TIMOTHY J. EVENS - Respondent

APPENDIX

Appendix A: South Dakota Codified Laws

38

Appendix B: United State’s Laws

40

Appendix C: Order Dismissing APPEAL 29245

49

Appendix D: Memorandum Order

50

Appendix E: (Defendant’s Proposed) FINDINGS OF FACT and
Conclusions of Law for 12.10.2019 Hearing

37

63

IN THE SUPREME COURT

&7PREME COURT
STAIB QFSOTglJAKOm

OE THE.
STATE OF SOUTH DAKOTA
* * * *

TIMOTHY JOHN EVENS,
Plaintiff and Appellee,
vs
RACHEL JOANNA EVENS,

Defendant and Appellant,

)
)
)
>
)
)
)
>
>
)

FEB 2 7 2528

Clerk
ORDER DISMISSING APPEAL
#29245

It app.eat.in9 t'd the Court that- the issues raised in the
above-entitled matter are either intermediate in nature and not taken
from a final judgment or order, or the issues are already the. subject
of this Court's review in appeal #28879; now, therefore, it is
ORDERED that the appeal be and it is hereby dismissed

4

DATED at Pierre, South Dakota this 27th day of: February,
2020,
BY THE COURT:

ATTEST:
David... Gilbertson, Chief Justice
Shirley A. Jameson-Fergel
Cle
't the
ie Court
By
ty Clerk
(SEAL
PARTICIPATING:

Chief Justice David Gilbertson, Justices Janine. M. kern,
Steven ft, Jansen, Mark £, Salter and Patricia. J. DeVaney.

49

*. -x

STATE OF SOUTH DAKOTA )

IN CIRCUIT COURT
SEVENTH JUDICIAL CIRCUIT
51DIV18-000041

)SS,

COUNTY OF PENNINGTON )
TIMOTHY JOHN EVENS,

)
)
)
)
)
)

Plaintiff,
vs.

RACHEL JOANNA EVENS,
Defendant

Memorandum Order

)
)
)

Procedural Background
The procedural background of this matter was extensively laid-out in the
Court’s September 20, 2019, Memorandum, Since then, there have been numerous
emails, submissions, and filings in the Circuit Court The Court understands that
- Mother, on October 16, 2019, appealed the Court’s September 20 Memorandum,
Order of Contempt and the associated Findings of Fact and Conclusions of Law. The
underlying appeal, though, appears unresolved. An appeal related to a child-support
issue was dismissed on September 24,2019. The following activities have taken place
between September 20,2019, and today.
October 23rd Email from Mother
On October 23, Mother sent an email to the Court requesting the Court
disqualify itself pursuant to S.D.C.L. 15-12-21.1. Mother indicated that she intended
to file an affidavit for change of judge, in the event the Court denied her informal
request The Court responded with an email indicating that it was unaware of a reason
to disqualify itself and that Mother likely waived her right to file an affidavit for change
of judge.
r"\

50

t .

\ .

October 25th Email from Mother
On October 25, Mother sent the Court a lengthy email, in which she again
asked the Court to recuse or disqualify itself,1 A review of the email indicates that
Mother*s basis for recusal is essentially that she believes that some of the Court’s prior
decisions have been incorrect She also insinuates that die Court failed to comply with
certain provisions of the Federal Rules of Civil Procedure.
October 28th Motion from Mother
On October 28, Mother purported to file a motion for enforcement of
Divorce Decree. The motion includes a certificate of service which asserts that it was
served by email “and/or” First Class Mail. In a November 2 email, Mother concedes
that this motion was submitted to Judge Craig “Pfiefi.” The Court understands Judge
Pfeifle directed that this document be filed in the instant case.
The purported motion largely seeks remedy related to child custody, visitation
and issues related to the Court-appointed Parenting Coordinator, Lindsay Bruckner,
MBA, MSW, LCSW-PIP, QMHP. As the record reflects, the Court signed a Judgment
and Decree of Divorce on December 21,2018. In the Judgment and Decree, the Court
awarded husband primary physical custody of the patties’ minor children, subject to
mother’s visitation. In pertinent part, visitation was set out by way of an
acknowledgement of Parenting Guideline 4 of the South Dakota parenting guidelines,
which pertain to situations like this: where patents live more than 200 miles apart and
the children are five or older. The children and Father live in Rapid City. At the time
of the divorce, Mother lived in Montana. It appears, but is not clear, that Mother still
resides in Montana. According to the guiddines and the Decree, Mother was afforded

1 Mother specifically asks the Court to “resign.”
Page 2 of 13
51

1

,

-i -

visitation during die summer of 2019. She also is entitled to visitation during the
children’s winter break from schooL She is also entitled to visitation over the
Thanksgiving holiday in even-numbered years, but not this year. The Decree and the
guidelines also recognize that Additional Time with the Noncustodial Parentmight be
appropriate, “where distance and finances permit” when the non-custodial parent is
“in the area where the children reside.” Importantly, the Decree also ordered that Ms.
Bruckner be appointed as a Parenting Coordinator, Her appointment was confirmed
by a subsequent order. The judgment and Decree also ordered Mother to “continue
counseling with a licensed mental health professional.” Mother’s purported motion
demands that a hearing be “scheduled immediately.”
In summation, the motion submitted to Judge Pfeifle asks the Court to:
*
*
»

*
*
.
*

Impose sanctions against Father for parental alienation behavior granting
additional visitation as retribution;
Appoint Melanie Tomo, LCSW, as die children’s counselor while children
are in Rapid City and Coral Beck, LSCW, while they are in Montana.
Retain die children’s dentists in Missoula for their January 2020 teeth
r1paning) pending the Supreme Court’s final decision of regarding the
appeal of custody and residency.
Establish an interim primary care provider in Rapid City and Dr, Hart,
MD, as primary care provider in Missoula, Montana.
Order Father to reimburse Mother for expenses of .travel, medical care,
clothing, activities, and expenses and other payments owed to Mother per
the Divorce Decree.
Order Father to execute tides to the property awarded to Mother.

November 1st Email from Parenting Coordinator
*

On November 1, Ms. Bruckner submitted two documents to the Court One
of the documents was the parties’ eight-page Fall 2019 initial agreement, dated
October 24,2019- It should be noted that the parties’ agreement significantly expands
the scope of Mother’s visitation with die children by defining terms of the “Additional

Page 3 of 13
52

* .

S~\

* .

Time with the Noncustodial Parent” beyond the Summer, Thanksgiving, Winter, and
Spring school breaks.
The second document was a six-page update as to Ms. Bruckner's work on the
case. The update reveals several very concerning observations about Mother’s
behavior. Among other things, Ms, Bruckner raises a concern that Mother's statements
have been “threatening or hostile” to the children’s counselor, Judith Kennedy, a
Licensed Professional Counselor and Psychologist Ms. Buckner would like to have
the Court recognize Ms. Kennedy as the children’s counselor. Ms, Bruckner relayed
that she had spoken the children’s prior counselor, Coral Beck, LCSW, who told Ms,
Bruckner that Mother described Ms. Kennedy as a “second-grade teacher,” not a
• licensed counselor or psychologist Ms. Bruckner also relayed that she warned Mother
concerning Mother’s “beHttkng and demeaning comments” towards Ms. Bruckner
including allegations that she is illiterate, “inexperienced,” and wtU he sued for
malpractice. Ms. Bruckner also revealed that Mother had not been seeing a licensed
mental health professional as ordered by the Court.
In summation, Ms. Bruckner asks the Court to:
•

•
•
•
•
/'"V

Recognize Judith Kennedy, LPC, as the counselor who will be seeing all
the children until the time Ms. Kennedy’s professional recommendations
are to discharge the children, or until she feels she is not making progress
with the children and it would be appropriate to seek therapy with another
counselor.
Allow that should Ms. Kennedy be not available as a counselor, Melanie
Totno, LCSW, shall be the back-up option.
Specify that should the children move back to Montana, the children may
see Coral Beck, LCSW.
Confirm that the children are not to see more than one counselor at a time.
Remind Mother that she was ordered to establish counseling in the Decree
and that she was given the deadline of November 1, 2019, to inform the
Patenting Coordinator of her therapy provider and the date of her first
session. Mother’s counselor may not be one providing therapy to Father
or the children.
Page 4 of 13
53

f

,

' »

• Remind both parties that it is not appropriate to make statements that can
be construed as threatening or hostile to the professional counselor "who
is seeing the children in this case.
• Clarify insurance coverage for the children given that they may not be
eligible for Montana Medicaid if their primary residence is in Rapid City,
South Dakota.
• Allow children to establish medical, vision, and dental care in Rapid
City, However, the children may see their Montana providers when in
Montana if necessary to address a medical issue.
• Clarify “liberal visitation” when mother is Rapid City. Parenting
Coordinator recommends every other weekend and one day a week during
the period of 11/4/2019 until 12/31/2019, or until Mother returns to
Montana.2
• Inform Mother that the “belittling and demeaning commente” toward the
Parenting Coordinator are inappropriate and will not be tolerated.
November 2nd Email from Mother
Mother responded to Ms. Bruckner’s update with an email The email begins
with a thinly disguised threat of “grave consequences” for Ms. Bruckner. Then Mother
alleges that Ms. Bruckner’s statements in her update were defamatory. The email also
asserts a baseless request for Ms. Bruckner to provide evidence under “Federal Rule
301” and sets forth Mother’s intention to seek additional visitation as “retribution.”
Finally, the email indicates that die October 28 motion, which was submitted to Judge
Pfeifle, was based on S.D.CJL 25-4A-2, even though the motion itself claims to be
brought pursuant to S.D.C.L. 15-6-8. Although Mother asserts that such a motion
needs to be resolved within 30 days (and even though the motion demanded that a
hearing be “scheduled immediately”), she indicates that she is unavailable for a hearing
until December 5,2019. Later in the email, Mother again threatens Ms. Bruckner. She
concludes by indicating that intends to forward her email to Judge Pfiefle, to keep him
“in the loop.”

51 However, Mother, in her November 6 affidavit, attests that she is not able to be ia Rapid City uadi

December 5,2019.)
Page 5 of 13
54

* .

November 8th Email from Mother
Mother forwarded an email to the Court on the rnnming of November 8,
which she had apparently sent to Father and Ms, Bruckner. It does not appear she sent
it to Father’s counsel The email is very condescending to die Parenting Coordinator.
It is vague. It is nonsensical.
November 8th Email from Parenting Coordinator
Within die hour, the Court received a response from Ms. Bruckner.3 The email
indicated that on the afternoon of November 1, law enforcement called Ms. Bruckner
related to a visitation dispute between the parties. Mother had apparendy followed
Father, who drove to the Public Safety Building. Mother asserted that she had a right
to visitation with the children. Ms. Bruckner relayed to law enforcement that it was
Father’s time with the children.
The email also outlined the discussions that had occurred between November

1 and November 8 regarding upcoming “Additional Time with the Noncustodial
Parent” visitation. Those discussions appear to have been difficult
The final topic discussed in the email is an incident which occurred on
November 7. Mother was apparently granted permission to take the children from
counseling to the YMCA for evening activities. The children’s nanny was to pick them
up from the YMCA. Mother, instead, picked diem up. She refused to take them to
Father’s house and waited outside the Public Safety Building and messaged that she
would be keeping the children for the evening. Ultimately law enforcement had to

5 The Court was in Court all day November 8 and was not able to read the emails as they were
“received." They were read later.
Page 6 of 13
55

r\

intervene to return the children to Father. To be dear, none of this was mentioned in
Mother’s earlier emaiL
It appears, from the Parenting Coordinator’s email, that she is “deeply
concerned over the number of times law enforcement has had to be involved in the
last week” and is concerned “what this does to the children ... to be exposed to
having police have to monitor the exchanges.” She relays that Mother ignores her and
disregards recommendations. Ms. Bruckner is concerned that Mother will continue to
“take the children during the other parent’s time” and that law enforcement will need
to be called in the future to have the children returned. She described the situation as
“escalating.”
Second November 8th Email from Mother
Mother responded and accused the Parenting Coordinator of lying. The email
goes on for many paragraphs, but ultimately concludes with a demand for Court
intervention to allow her to have visitation “next week.” She concludes stating that
she has been waiting for a hearing since October 28, despite the feet that she earlier
claimed not to be available for a hearing until December 5,
Discussion
Recusal
Mother’s requests for the Court's disqualification are baseless. Initially,
Mother’s basis for disqualification was the Court’s “most recent rulings in the May and
July heatings.” Ostensibly, Mother believes that she is entitled to a new judge because
the Court has previously made rulings adverse to her position. This is not a basis for
disqualification.
Page 7 of 13
56

[[Judicial rulings alone almost never Constitute a valid basis for a bias
or partiality motion. In and of themselves (i.e., apart from surrounding
comments or accompanying opinion), they cannot possibly show
reliance upon an extrajudicial source; and can only in the rarest
circumstances evidence the degree of favoritism or antagonism
required when no extrajudicial source is involved. Almost invariably,
they are proper grounds for appeal, not for recusal4
Plainly, Mother’s remedy for these perceived incorrect rulings is to appeal them and
seek a reversal or remand from the Supreme Court Her numerous appeals, though,
remain unresolved.
But Mother's additional grounds for disqualification, as contained in her
October 25 email, ate just more of the same. They are assertions that the Court
committed reversible error. There is no meaningful assertion of partiality or bias. The
Court, having made the prior rulings, understands diem to be correct, but even if some
or many of those decisions were incorrect, disqualification is not appropriate on this
.■r“s

, record.
visitation Issues

It is appropriate to address and resolve some of the concerns presented by Ms.
Bruckner and by Mother. In doing so, the Court notes, without comment, that Father
has not offered a position on any of these recent developments. Also, the Court notes
that “[tjhe circuit court may limit visitation if it is in the best interest of the chM[ren].”s
Moreover, “JcJircuit courts ‘have broad discretion when considering matters of child
custody and visitation.’ That broad discretion includes discretion as to what evidence

4 Uttkj a Umtid State, 510 U S. 540,555-56,114 S. Ct. 1147,1157,127 L. Ed. 2d 474 (1994).
s Pitp^p, Vitptr, 2013 S.D. 98. % 19,841 N.W.2d 781,787.
Page 8 of 13

57

the trier of fact will rely on,”6 The Court turns initially to the requests in Ms. Bruckner’s
November 1 update.
First, Ac Court recognizes Judith Kennedy, LPC, as Ac counselor who should
be seeing the children until Ms. Kennedy’s professional recommendation is to
discharge the children, or until she feels she is not making progress with the children
and it would be appropriate to seek therapy with another counselor. If Ms. Kennedy
becomes unavailable as a counselor, Melanie Torn©, LCSW, should be a back-up
option, unless otherwise ordered- And, in the event children move back to Montana,
the children may see Coral Beck, LCSW. In any cases the children ate not to see more
than one counselor at a time.
Second, it is not appropriate to make demeaning or threating statements to the
professional counselor who is seeing the children in this case. likewise, belittling and
/~\

demeaning comments aimed at the parenting coordinator are also inappropriate. Any
further instances of such conduct by either party will not he tolerated.
Third, the Court cannot clarify the children’s insurance coverage at this time.
The Judgment and Decree of Divorce dictates that Mother provide health insurance
for the children. The Court will schedule a hearing to consider the parries’ arguments.

r
.

Fourth, Acre will be no further “Additional Time wiA Ae Noncustodial

parent” visitation until further order of Ae Court. Unless oAerwise ordered by Ae
Couth MoAeris next visitation period will be during Ae Winter (Christmas) school
break. The Court understands that Ae Rapid Area Schools are observing winter break
from December 23,2019, to January 3,2019, This limitation is appropriate for many
reasons. The Court recognizes Ae work of Ms. Bruckner, who has worked to provide

Page 9 of 13
58

Mother with visitation for in excess ojf what is contemplated by either the visitation
guidelines or this Court’s order. And credit should be given to Father, too, for
accommodating this visitation schedule. However, the recent issues involving
visitation make it clear that this additional undefined visitation is not in the children’s
best interest In feet, Mother has not claimed that any of her requested visitation is in
the best interests of her children. Her claims, rather, are focused on herself, not the
children. And her demand for increased visitation is not based on the best interests of
the children; it is, by her own admission, based on a desire to seek “retribution,”
Particularly, Mother has subjected the children to numerous interactions with law
enforcement And these are not the first instances. The Court received evidence at trial
of law enforcement involvement during Labor Day weekend 2018. And on August 12,
2018, Mother also refused to cooperate with a visitation exchange. The Court agrees
with Ms. Bruckner that this behavior is escalating. This additional visitation should be
suspended for the benefit of the children. The court will consider restarting additional
visitation, though. The Court will schedule a hearing to address the visitation issue.
The Court finds Mother's argument that Ms, Bruckner is liar to be unavailing.
Ms. Bruckner is a. Court-approved professional with no motivation to lie. On the other
hand, ^ Court made numerous findings in its trial Findings of Fact and Conclusions
of Law regarding Mother’s lack of credibility.
Fifth, Mother should immediately file with the Clerk of Courts, verification
from a licensed therapist that she is in compliance with the Court’s order for her to
begin and continue therapy with a licensed mental health provider.

Page 10 of 13
59

Motion Filed October 28
The Coutt will schedule a hearing to consider any appropriate issue raised in
Mother*s October 28 motion. The Court understands that Mother is not available until
December 5. The Court’s docket does not allow for a hearing before then either.
The Court notes that Mother’s Certificate of Service indicates that she served
Father’s counsel by email “and/or” First Class U.S. Mail Father’s counsel has not
agreed in writing to accept service by email and, in the past, has properly served Mother
by email and by also sending First Class mail. When Mother has been represented by
counsel. Father has also properly served Mother by filing in Odyssey.
- It is unclear whether Mother’s service by email meets the requirements of
S.D.C.L, 15-6~5(j)(2). Notwithstanding die potential failure to properly serve, the
Court will set a heating at its next availability.
Conclusion
The Court reminds the parries that all pleadings regarding trial court matters
must be* properly filed with the Qerk of Courts and proper notice provided to the
.. opposing parties. All appeal matters must be filed with die South Dakota Supreme
Court, This Court will not respond to improper email communication.
The Court’s calendar allows little opportunity for a hearing. The next available
time die Court has available is the morning of Tuesday, December 10,2019. The Coutt
will set a hearing at 8:30 a,m. M.S.T. that day. At the hearing, the Court will consider
the medical insurance issues, the visitation issues, and other issues as the Court has
jurisdiction given the pending appealas and as it secs fit The Court’s next available
dates for a hearing, at this rime ace December 30 and January 29,

Page It of 13
60

*

' s.

Otdef
Foi the reasons set for above, it is hereby ORDERED that the "Additional
Time with the Noncustodial Parent?* set forth in the Divorce Decree shall be
discontinued until further order of die Court. All other visitation set forth in the
Divotee Decree shall be strictly followed by the parties.
Further it is hereby ORDERED that Mother Rachel Evens shall provide proof
of compliance with the mental health counseling ordered la this Court's Conclusion
of law No. 12, filed December 26,2018. Proof shall be filed by December 6,2019.
Further, it is hereby ORDERED that Judith Kennedy, LPC, is the children’s
counselor until Ms. Kennedy recommends that die children be discharged or seek
therapy with another counselor. Should Ms. Kennedy discharge the children from her
care, Melanie Tomo, LCSW, shall be a back-up option. Should the children move
back to Montana, Coral Beck, LCSW, may be assigned as a counselor. In any case, the
children are not to see more than one counselor at a rime.
Notice of Heating
.. Further, it is hereby ORDERED that a hearing on the issues discussed above
will be held at 8:30 a.m. M.S.T. in Courtroom C5 of the Pennington County
Courthouse in Rapid City, South Dakota.
Dated November 13,2019.
LT:

BY

'/Z

Jeffrey Robert
ATTEST;
^RANAE TRUMAN, CLERK OF COURTS

SD
IN CIRCUIT COURT
Page 12 of 13
61

MOV 1 3 2013
Name

rtt of Court*
—Deputy

Additional material
from this filing is
available in the
Clerk's Office.

